   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                        Washington, D.C. 20201




September 7, 2011

TO:            Yolanda J. Butler
               Acting Director
               Office of Community Services
               Administration for Children & Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review at United Community Action Program, Inc.
               (A-06-10-00090)


The attached final report provides the results of our limited scope review at United Community
Action Program, Inc. In accordance with the American Recovery and Reinvestment Act of
2009, the Office of Inspector General (OIG) will provide oversight of covered funds to prevent
fraud, waste, and abuse.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. We look forward to receiving
your final management decision within 6 months. Please refer to report number A-06-10-00090
in all correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




 RESULTS OF LIMITED SCOPE
REVIEW AT UNITED COMMUNITY
   ACTION PROGRAM, INC.




                       Daniel R. Levinson
                        Inspector General

                        September 2011
                         A-06-10-00090
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998 (the CSBG
Act), P. L. No. 105-285, to provide funds to alleviate the causes and conditions of poverty in
communities. Within the U.S. Department of Health & Human Services, the Administration for
Children & Families (ACF), Office of Community Services, administers the CSBG program.
The CSBG program funds a State-administered network of more than 1,000 local Community
Action Agencies (CAA) that create, coordinate, and deliver programs and services to low-
income Americans. The CAAs provide services and activities addressing employment,
education, housing, nutrition, emergency services, health, and better use of available income.

Under the American Recovery and Reinvestment Act of 2009 (the Recovery Act), P.L. No.
111-5, enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program
to help States alleviate the causes and conditions of poverty in communities. States distribute
CSBG Recovery Act funds to CAAs using the existing statutory formula.

The Oklahoma Department of Commerce (the State agency) acts as the lead agency in carrying
out State activities for the CSBG program. The State agency is responsible for approving the
State’s CAA Recovery Act grant applications and monitoring the CAAs for compliance with
program regulations. ACF awarded the State agency an additional $11,965,297 in Recovery Act
funds for the State of Oklahoma’s CSBG program.

United Community Action Program, Inc. (United), a private, nonprofit organization, provides a
range of services related to the problems of poverty to eight counties in northeast Oklahoma.
During fiscal year 2009, the State agency awarded United $420,987 in CSBG funds and
$637,003 in Recovery Act grant funds. During the same period, United expended total Federal
grant awards of $12,819,417.

OBJECTIVE

Our objective was to assess United’s financial viability, capacity to manage and account for
Federal funds, and ability to operate the CSBG program in accordance with Federal regulations.

SUMMARY OF FINDINGS

United has the ability to manage and account for Federal funds and is capable of operating a
CSBG program in accordance with Federal regulations. However, United has weaknesses
related to its use of Recovery Act funds, financial systems, segregation of physical inventory
duties, computer security, board of directors, Recovery Act reporting, and accounting policies
and procedures.




                                                i
RECOMMENDATIONS

In determining whether United is appropriately managing and accounting for Recovery Act grant
funding and whether United has the ability to operate a CSBG program in accordance with
Federal regulations, ACF should consider the information presented in this report. In addition,
United should work with the State agency to address the weaknesses identified.

UNITED COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, United concurred with several of our findings and
described actions it had taken to address them. However, United did not concur with our
findings related to its use of Recovery Act funds, its board of directors, and its accounting
policies and procedures. United’s comments are included in their entirety as the Appendix.
Nothing in United’s comments caused us to change our findings or recommendations.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                               Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Community Services Block Grant Program ..................................................1
              Oklahoma Department of Commerce ............................................................1
              United Community Action Program, Inc. ......................................................1
              Requirements for Federal Grantees ...............................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          QUESTIONABLE USE OF RECOVERY ACT FUNDS .........................................3
               Consultant Expenses ......................................................................................3
               Salary Increases for Employees .....................................................................4

          FINANCIAL SYSTEMS ...........................................................................................4
               Segregation of Accounting Duties .................................................................4
               Financial Management System Security........................................................4

          SEGREGATION OF PHYSICAL INVENTORY DUTIES .....................................5

          COMPUTER SECURITY .........................................................................................5

          BOARD OF DIRECTORS ISSUES ..........................................................................5

          RECOVERY ACT REPORTING..............................................................................6

          INADEQUATE ACCOUNTING POLICIES AND PROCEDURES .......................6
               Whistleblowing Policies and Procedures .......................................................6
               Use of Consultant Policies and Procedures ...................................................6

          RECOMMENDATIONS ...........................................................................................7

          UNITED COMMENTS AND OFFICE OF INSPECTOR GENERAL
           RESPONSE..............................................................................................................7




                                                                     iii
APPENDIX

    UNITED COMMENTS




                      iv
                                       INTRODUCTION

BACKGROUND

Community Services Block Grant Program

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998 (the CSBG
Act), P. L. No. 105-285, to provide funds to alleviate the causes and conditions of poverty in
communities. Within the U.S. Department of Health & Human Services, the Administration for
Children & Families (ACF), Office of Community Services, administers the CSBG program.
The CSBG program funds a State-administered network of more than 1,000 local Community
Action Agencies (CAA) that create, coordinate, and deliver programs and services to low-
income Americans. The CAAs provide services and activities addressing employment,
education, housing, nutrition, emergency services, health, and better use of available income.

Under the American Recovery and Reinvestment Act of 2009 (the Recovery Act), P.L. No.
111-5, enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program
to help States alleviate the causes and conditions of poverty in communities. States distribute
CSBG Recovery Act funds to CAAs using the existing statutory formula.

Oklahoma Department of Commerce

The Oklahoma Department of Commerce (the State agency) acts as the lead agency in carrying
out State activities for the CSBG program. The State agency is responsible for approving the
State’s CAA Recovery Act grant applications and monitoring the CAAs for compliance with
program regulations. ACF awarded the State agency an additional $11,965,297 in Recovery Act
funds for the State of Oklahoma’s CSBG program.

United Community Action Program, Inc.

United Community Action Program, Inc. (United), a private, nonprofit organization, provides a
range of services to eight counties in northeast Oklahoma. During fiscal year 2009, the State
agency awarded United $420,987 in CSBG funds and $637,003 in Recovery Act grant funds.
During the same period, United expended total Federal grant awards of $12,819,417.

Requirements for Federal Grantees

Pursuant to 45 CFR § 74, grantees of Federal awards must implement written accounting policies
and procedures and maintain financial systems that provide for accurate and complete reporting
of grant-related financial data, effective control over grant funds, and allocation of costs to all
benefitting programs. In addition, grantees must establish written procurement procedures.
Grantees are also required to maintain inventory control systems and take periodic physical
inventory of grant-related equipment. In addition, pursuant to 45 CFR § 74.27, the allowability
of costs incurred by nonprofit organizations is determined in accordance with the provisions of




                                                1
Office of Management and Budget (OMB) Circular A-122, Cost Principles for Non-Profit
Organizations.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess United’s financial viability, capacity to manage and account for
Federal funds, and ability to operate the CSBG program in accordance with Federal regulations.

Scope

We conducted a limited review of United’s financial viability, financial management system, and
related policies and procedures. Therefore, we did not perform an overall assessment of United’s
internal control structure. Rather, we reviewed only the internal controls that pertained directly
to our objectives. Our review period was November 1, 2006, through May 31, 2010.

We performed our fieldwork at United’s administrative office in Pawnee, Oklahoma, during June
and July 2010.

Methodology

To accomplish our objective, we:

   •    confirmed that United is not excluded from receiving Federal funds;

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed United’s application for and use of Recovery Act grant awards;

   •    reviewed the findings related to the most recent State agency review of United;

   •    reviewed United’s policies and procedures related to the CSBG program;

   •    reviewed United’s bylaws, the minutes from its board of directors meetings, the
        composition of its board, and its organizational chart;

   •    performed audit steps to assess the adequacy of United’s current financial systems; and

   •    reviewed United’s audited financial statements and supporting documentation for the
        period November 1, 2006, through May 31, 2010.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions




                                                2
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

United has the ability to manage and account for Federal funds and is capable of operating a
CSBG program in accordance with Federal regulations. However, United has weaknesses
related to its use of Recovery Act funds, financial systems, segregation of physical inventory
duties, computer security, board of directors, Recovery Act reporting, and accounting policies
and procedures.

QUESTIONABLE USE OF RECOVERY ACT FUNDS

Consultant Expenses

The Recovery Act provided an additional $1 billion to the CSBG program. As with regularly
appropriated CSBG funds, Recovery Act funds were to be used for the reduction of poverty, the
revitalization of low-income communities, and the empowerment of low-income families and
individuals in rural and urban areas.

In addition, consistent with the intent of the Recovery Act, States and eligible entities were
expected to use Recovery Act funds on activities related to preserving and creating jobs,
promoting economic recovery, and providing assistance to those most affected by the recession.
These services were to be provided by September 30, 2010, as documented in the ACF
Information Memorandum 109 (IM 109).

Additionally, pursuant to OMB Circular A-122, to be allowable under an award, costs must be
reasonable for the performance of the award, and to be allocable, costs must be incurred
specifically for the award.

In February 2010, United submitted a budget modification to use CSBG Recovery Act funds to
contract with a part-time consultant who was to provide services from February through
September 30, 2010. The cost of the contract was $5,000 per month plus office and travel
expenses. The consultant advised United on issues related to economic development, veterans
services, and health, housing, and services provided to low-income and homeless families and
individuals.

However, the Recovery Act funds used to pay the consultant did not provide assistance to those
most affected by the recession, and there was no evidence that any services were to be provided
to these people by September 30, 2010, which was inconsistent with the intent of the Recovery
Act, as documented in IM 109, and with the Federal cost principle policies established in OMB
Circular A-122. Additionally, a United official said that there were questionable charges on the
first bill the consultant submitted.




                                                3
Salary Increases for Employees

Pursuant to OMB Circular A-122, to be allowable under an award, costs must be reasonable for
the performance of the award. United’s Accounting Policies and Procedures Manual required an
up-to-date and complete job description for all employees. In addition, job descriptions are
required to be updated when duties change.

United did not adequately justify the use of Recovery Act funds to increase the salaries of three
employees. The total budgeted cost of the increases, from June 2009 through September 2010,
was $23,753, based on 10- to 20-percent increases for each employee. In July 2009, the
executive director notified five employees of the increases, which were for “additional duties
under the CSBG Stimulus contract.” However, only two employees who received increases had
job descriptions that cited specific Recovery Act duties. The job descriptions for the three other
employees—the executive secretary, the substance abuse director, and a case management
coordinator—did not cite Recovery Act duties or additional duties that would have justified an
increase in wages.

FINANCIAL SYSTEMS

Segregation of Accounting Duties

Pursuant to 45 CFR § 74.21(b)(3), recipients must provide for effective control over and
accountability for all funds, property, and other assets.

United did not adequately segregate duties in the accounting department. We identified a United
accountant who performed the bank reconciliations, maintained physical control of the
checkbooks, and was responsible for cash disbursements. We also identified an accounting clerk
who had responsibility for reconciling checks received by United and preparing and making
bank deposits. Finally, no one performed a postentry verification on the accounts payable
vouchers after the clerk entered the vouchers into the computer system and before the clerk
prepared the checks. Because these accounting duties were not segregated, there was a financial
risk to the organization.

Financial Management System Security

Pursuant to 45 CFR § 74.21(b)(3), a recipient’s financial management system should provide for
effective control over and accountability for all funds, property, and other assets. Recipients
should adequately safeguard all such assets and assure that they are used solely for authorized
purposes.

United’s financial systems were not protected from unauthorized access. United employees were
not required to password protect their computers, and United’s accounting system was not
password protected. As a result, there was a risk of unauthorized access to United’s financial
management systems and United’s ability to effectively control and account for all funds and
assets.




                                                4
SEGREGATION OF PHYSICAL INVENTORY DUTIES

Pursuant to 45 CFR § 74.34(f), recipients’ property management standards for equipment
acquired with Federal funds should include maintenance of a control system to ensure adequate
safeguards to prevent loss, damage, or theft of the equipment.

United did not always segregate key physical inventory duties and responsibilities among
employees. The purchasing agent maintained the master inventory record on his computer and
on a compact disc as a backup and was responsible for updating the inventory records. However,
he had completed some annual physical inventories on his own without the aid of his assistant.
We advised United that the physical inventories should not be completed by the same individual
who maintains the master inventory records because it creates an opportunity for
misappropriation of federally funded assets. United officials said that separating these duties
would place an undue burden on the procurement department. However, according to the
assistant’s job description, one of the assigned duties was to “assist with inventory, filing, and
record keeping regarding purchasing and property as required.”

COMPUTER SECURITY

National Institute of Standards and Technology (NIST) Special Publication (SP) 800-53, revision
2, requires an organization to develop and disseminate a formal, documented access control
policy for computer access and requires information systems to uniquely identify and
authenticate users. Additionally, formatting a drive is not one of the acceptable methods
recognized by NIST SP 800-88, for removing data from storage media.

United did not have adequate computer security procedures. Specifically, United did not:

   •   have a formal computer access policy,

   •   require employees to password protect their computers, and

   •   have adequate procedures for the removal of data from computers.

BOARD OF DIRECTORS ISSUES

Section 676B of the CSBG Act requires that all CSBG agencies administer the CSBG program
through a tripartite board that fully participates in the development, planning, implementation,
and evaluation of the programs that serve low-income communities. The State agency’s
Contractor Implementation Manual, Requirement 202, requires that the board membership roster
be updated and submitted with the CSBG application to the State agency annually. Pursuant to
the State agency’s Liaison Manual, a desk monitoring of the CAAs includes a review of all
CONFAX documents, which are CAA-related documents (e.g., financial policies and
procedures, bylaws, and board membership roster).

The board membership roster United submitted included two board members whose terms had
expired. One member, the treasurer, continued to sign checks from June to August 2009, even



                                                5
though her term had expired in May and she was not an active member during that time. Thus,
her signatory authority and review of United documents should not have been allowed during
this time.

Additionally, because the board membership roster submitted to the State agency had not been
updated since 2008, the State agency did not have the current documents necessary to conduct an
adequate monitoring review for United.

RECOVERY ACT REPORTING

Pursuant to the Recovery Act, section 1512(c)(3)(D), recipients are to report “an estimate of the
number of jobs created and the number of jobs retained by the project or activity.”

In its Recovery Act report for the quarter ended March 31, 2010, United incorrectly reported a
consultant as a full-time employee. United contracted with a consultant for services beginning in
February 2010; however, the consultant was not required to “devote full time to performing the
services required by the agreement.” Thus, the consultant should not have been reported as a
full-time employee of United for Recovery Act reporting purposes.

INADEQUATE ACCOUNTING POLICIES AND PROCEDURES

Whistleblowing Policies and Procedures

Pursuant to the Recovery Act, section 1553(e), any employer receiving covered funds is required
to post notice of the rights of whistleblowers and remedies for their protection. United did not
have a process established and communicated to officers, employees, and others about the rights
and remedies provided by the Recovery Act for reporting suspected instances of wrongdoing by
the company or its employees.

Additionally, United’s Accounting Policies & Procedures Manual did not include procedures to
ensure that anyone who suspects or identifies dishonest or fraudulent activities is protected from
retaliation.

Use of Consultant Policies and Procedures

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting
policies and procedures. In addition, pursuant to 45 CFR § 74.27, the allowability of costs
incurred by nonprofit organizations is determined in accordance with the provisions of OMB
Circular A-122, Cost Principles for Non-Profit Organizations.

United’s Accounting Policies & Procedures Manual did not include procedures to ensure that
evidence is produced that (1) indicates consultant services were required, (2) a selection process
was used to secure the most qualified individual available, (3) the fee was reasonable, and (4) the
services to be provided were identified and documented.




                                                6
RECOMMENDATIONS

In determining whether United is appropriately managing and accounting for Recovery Act grant
funding and whether United has the ability to operate a CSBG program in accordance with
Federal regulations, ACF should consider the information presented in this report. In addition,
United should work with the State agency to address the weaknesses identified.

UNITED COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, United concurred with several of our findings and
described actions it had taken to address them. However, United did not concur with our
findings related to its use of Recovery Act funds, its board of directors, and its accounting
policies and procedures. United’s comments are included in their entirety as the Appendix.
Nothing in United’s comments caused us to change our findings or recommendations.

Questionable Use of Recovery Act Funds

United Comments

United did not concur with our findings related to consultant expenses and salary increases for
three employees. Regarding the consultant expenses, United said that the expenses were
consistent with the terms of the Recovery Act, the State agency had approved the expenses, and
the consultant met the criteria for sole source procurement.

Regarding the salary increases, United maintained that the personnel files of the executive
secretary and the substance abuse director contained a memorandum that justified the increase in
wages based on additional duties assumed under ARRA. United said that the memos for these
employees stated: “Funds under the American Reinvestment and Recovery Act-Community
Services Block Grant have been used to cover the salary increase awarded to you as a result of
additional duties and responsibilities you agreed to accept to carry out the projects and reporting
required under the agency’s ARRA-CSBG application. This funding expires September 30,
2010.” United further said that the case management coordinator’s job description stated that the
position was created using ARRA funding.

Office of Inspector General Response

Regarding the consultant expenses, we are not disputing that United received State agency
approval to hire the consultant and that the consultant met the criteria for sole source
procurement. However, we are questioning United’s statement that the consultant’s services
were consistent with the intent of the Recovery Act.

The Office of Community Services provided information pertaining to the use of CSBG-ARRA
funds, which stated that “States and eligible entities are expected to focus assistance … [on]
those most impacted by the recession.” Furthermore, CSBG IM-109 stated that all ARRA funds
should be allocated by September 30, 2010.




                                                 7
During our on-site review at United, we determined that the consultant’s status reports did not
document any evidence that the services she provided to United assisted people affected by the
recession or that any assistance was to be provided to these people during the CSBG-ARRA
funding period, which ended September 30, 2010.

Regarding the salary increases for three employees, the increases were not supported at the time
of our review. United’s normal practice is to update job descriptions when the duties of a
position change. This practice follows United’s accounting policies and procedures. However,
this was not done for these three employees. Instead, United provided memos to justify the
salary increases. However, the memos that we were provided did not contain the language
United suggests for these employees, and did not contain any specific information on the
additional Recovery Act duties these employees were to have. Therefore, we were unable to
justify the salary increases at the time of our review.

Board of Directors Issues

United Comments

United did not concur with our findings related to the board of directors. United maintained that
it had provided the State agency with a 2010 board of directors list as required. United also
maintained that even though a board member’s term had ended, the former board member could
hold the position because the member had not been officially removed. United added that it was
in the process of filling the position.

Office of Inspector General Response

Regarding board of directors rosters, United’s CONFAX documents included only the 2008
program year’s board of directors roster, not the 2010 roster as the State agency’s Liaison
Manual requires.

Regarding one board member’s expired term, the term expired nearly a year before our audit.
United’s bylaws state: “Individuals in the private, public, or low-income sector must be removed
from the Board at, or before, the end of each term.”

Inadequate Accounting Policies and Procedures

United Comments

Finally, United did not concur with our finding related to the use of consultant policies and
procedures. United maintained that the Accounting Policies and Procedures Manual included
procedures for purchasing goods and services, which would include consultant services.

Office of Inspector General Response

We are not disputing United’s statement that it had procedures pertaining to the purchase of
goods and services, which would include consultant services. However, for grantees of Federal



                                                8
awards, these procedures were not in accordance with the cost principles established in OMB
Circular A-122. Specifically, United’s documentation did not show that:

   •   consultant services were required,

   •   a selection process was used to secure the most qualified individual available,

   •   the fee was reasonable, and

   •   the services to be provided were identified and documented.




                                                9
APPENDIX
                                                                                                                         Page I of3


                                  APPENDIX : UNITED COM MENT S.




                                                       JOHNNY BRYANT                                        CENTRA l OFFICE
501 Sixth She!                                                                                                (918)162-3041
                                                        EXECIJTJV1! OIA€C ~                                    HEAD START
Pawoee, OK 74058
                                                                                                              (9 \ 8) 162-2561
                                                                                                            WEATHERIZATION
                                                                                                              (918) 762-3041
            May 23, 2011



            Ms. Patricia Wheeler 

            Regional Inspector General 

              For Audit Services

            Region VI 

            11 00 Conunerce Street, Room 632 

            Dallas, TX 75242 


            RE: Report Number - A-06- J 0-00090

             Dear Ms. Wheeler:
                                                                                        that was
            United Community Action Program, Inc., would like 10 comment to the report
                                           ent of Health & Human Services. Office of Inspecto r
            conducted by the U. S. Departm
            General during June and July 2010.

             Consultant Expenses
                                                                                                    per the nature
             United feels thaI ..lie were consistent with the intent of the Recovery Act as
                              and  issues related 10 revi talize low-inco  me   commun   ities, empowe     r low­
             of the contmct
             income families and individuals in rural areas. This project         was  consiste  nt  with
                                                                                                    assistance to
             preserving and creating jobs, promoting economic rewvery and providing
                          affec1ed  by the recessio n, spedfica   lly veterans  issues, economi    c development,
             those most
                                                                              and  individu als.   Accordin    gly,
             heal th, and housing and services to low income families
                                              agency   for  the exact  purposes   they  were intended   .  Most
             these funds were used by our
                                                                                                   for veterans,
             everyone was affected by the re<:ession and attempting to provide a home
                                                                                 y be consiste  nt  with the use of
             housing for homeless and saving a hospital would definitel
                                                          states,  "Under   the regular  CSBC     program    .
             these funds. Memorandum eSBO            109
                                                                                          employment,
             eligible entitier use funds to provide se",ices and activities addressi ng
                                                                    nutrition ,  emergen cy services and/or
             education. beller use of(Il'Qilable income, housing.
                                            causes ofpovert  y.  Such  se",ices  continue to be supportable
             health to combat the centra/
                    the CSBG    Recover  yAcrfun  d"  It is my  understa nding  these funds could be used in
             under
                                                                                            Funhermore, in
                 any manner which is consiS1ent with our eSBO W1>rk program , activities.
                                     memora  ndum   109 "Use   of Funds", there was no mention of any
                 eSBO Tnfonnalion
                                                                                               difficult to
                 restrictions based on "lhose most affected. " In my opinion, it would be very
                                                                                               by the
                 address a panicular group or individual because most everyone was affected
                 recessio n.




                                      SEFIVING PJ,WNEE, OSA.G£. CREEK. kAY ~ NOBlE ~
                                     fAX:C£/fflU.LOFACE "t-7fiZ.30I , ' HEAOSfAllT elt-7fiZ·:J112
                                                                                              Page 2 of3




Prior to contracting with the consultant, United contacted ODOC to confirm the project
scope and budget modification, including budgelline items. Add itionaliy, the consultant
met the criteria for sole source procurement. The Contractor submitted a written request
to utilize the sole source procurement, and ODOC confirmed that UCAP could contract
with this particular consultant for the purposes stated and the costs associated.

The comment regarding the charges on the consultant's bill was the purchase of an ink
cartridge which we felt should be paid for by the contractor. The invoice was corrected
and resubmitted to UCAP, before any payment was made to the consultant. UCAP paid
only applicable and appropriate charges as agreed and authorized by ODOe.

Salary Increases for E mployees

Althoughjob descriptions for the executive secretary and the substance abuse director
may not cite additional duties that would have justified an increase in wages, a memo was
submitted and included in their perronnel files that acted as an addendum to their job
description. This memo stated that, "Funds under the American Reinvestment and
Recovery Act"Community Services Block Grant have been used to cover the salary
increase awarded to you as a result of additional duties and responsibilities you agreed to
accept to carry out the projccts and reporting required under the agency's ARRA"CSBG
application. This funding expires September 30, 201 0. The memo was available for
review at the time of the audit. Upon auditing recommendations, UeA P updated job
descriptions in question.

The case management coordinator had a specific job description, which included that the
position was created using ARRA stimulus funding. The job description was available
for review and discussed al the time of the audit.

Segregation of Accounting Duties

Some Accounting Department Job Duties were adjusted, as recommended. A limited
number of accounting staff makes some reconunendations unfeasible.

F in ancial Management System Secu rity

Accounting Department computers are now password protected.

Segregation of Phys ical I nventory Duties

The assistant 10 the property manager is now helping with inventory as recommended.

Computer Secu r ity:

ueAP board approved a formal computer access policy, on September 28, 2010. This
Technology and Electronic Communications Plan includes password security. UCAP
systems are subject to login passwords. Users are expeeted to lock or log off computers



                                             2
                                                                                                      Page 3 00




                                                                             of inactivity. 

that are unattended. Workstations are configured to lock after IS minutes
                          r equipment is to be returned to the Central  Office for proper 

Additionally. all compute
                                                                   rs  and destroye d before 

disposaL AU hard disk drivers will be removed from the compute
the equipment is recyeled through a third party. 


Board of Direeto rs Issues

An updated list of United's Board of Directors was sent in with the 2009
                                                                         and 2010 CSBG 

                                                          , we have made  extra effort to 

applicat ions as required. Upon auditor's recommendation
                                  the Oklahom a Departm ent of Commer  ce and send in 

coordinate with our liaison with
updated   infonna tion for the CONFA  X as needed. 


                                                                                  at the time
Arrangements for the vacancy in question were in the process oft>eing filled
             in Ju ne. Since the Board member   had not  been officiall y removed     from the 

of the audit
                                                        board member     until removal    . 'This 

Board, we feel that she could be considered an active
                              overlooked, and the position was fi lled immedia   tel y. 

situation was inadvertently

 Recover y Act Reporti ng 


 Corrections   Y.i~re   made in reporting of consultant. 


 Whistlehlowing Polides a nd Proeedu re!
                                                                         concerning 

 Accounting Pol icies and Procurement manurunow contains a statemen t
                     related consequences. Some program  s within the agency have 

 retaliation and the
                                                                             10 include this 

 whistleblowing policies in place. United will review its personnel policies
 issue. 


 Use orCons ultnnt Policies and Procedures
                                                                              res related 

 The Accounting Policies and Procedures Manual has always included procedu
                                                        consultant selVices. 

 to purchasing of goods and selVic« which would include
                                                                                 our views.
 Please accept this notice as our response to your draft report. Please consider

  Sincerely,



~ry:7~
  Executive Director

  lBldc

  C: UCAP Board of Directors 

     Oklahoma Department of Conunerce 



                                                     3
